SEC.gov |  Continuity of Operations Planning (COOP)
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Continuity of Operations Planning (COOP)
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM No. 26
September 30, 2002
To:   Robert Herdman
Jack Katz
Jim McConnell
Mark Radke
Jayne Seidman
From:   Walter Stachnik
Re:   Continuity of Operations Planning (COOP)
We performed a survey of the Commission's Continuity of Operations Planning (COOP) in conjunction with an on-going review of the Commission's market contingency preparedness operations.  Staff in the Office of Administrative and Personnel Management (OAPM) and the Executive Director's Office (OED) are responsible for ensuring that the Commission's COOP is complete and operational.
National Security Clearances
During our survey, we found that OAPM and OED staff assigned to the Commission's COOP operations did not have a national security clearance.  In some instances, this prevented Commission staff from reading classified documents that they contributed to.  It also prevented them from engaging in discussions with other Agency staff about possible threats, certain contingency operations and sensitive matters.
Additionally, only staff with national security clearances is generally privy to credible threats received by a Federal Government Agency.  This lack of information could prevent a trained COOP staff from reacting timely or properly in an emergency.
Recommendation A
OED, in conjunction with OAPM should (1) review the job requirements of OED and OAPM staff involved in the Commission's COOP, (2) reclassify appropriate job positions as national security for appropriate staff, and (3) obtain national security clearances for the staff in the reclassified positions.
After issuance of the draft memorandum, OED and OAPM senior officials stated that they had reviewed the job requirements of their COOP staff and that, currently, national security clearances are unnecessary for OAPM and OED staff assigned to the Commission's COOP operations.  They said they would reclassify job positions as national security and obtain national security clearances for appropriate staff, in the future, if needed.
Submission of COOP Plans
COOP coordinators in OAPM and the OED requested contingency plans from each office and division within the Commission.  These plans include contact information for all employees, a listing of essential personnel, lines of succession, calling trees, identification and contact information for key customers and vendors, and identification of key processes and vital records.  Each office and division was also asked to provide a written overview of the functions its staff is to perform when a COOP plan is activated.
Some offices have not submitted the requested plans, including the Offices of the Executive Director, the Executive Staff, the Secretary, and the Chief Accountant.
Recommendation B
The Offices of the Executive Director, the Executive Staff, the Secretary and the Chief Accountant should submit requested COOP documents by October 8, 20021.
cc:  Harry Fleming
Stephen Johnston
Tom McCool
Lisa Panasiti
Darlene Pryor
Dana Schlictmann
1  The related draft memorandum, dated September 13, 2002, also recommended the submission of these documents.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us